("~
e,~~
       DEPARTMENT OF HEALlH & HUMAN SERVICES                                         Office of Inspector General


                                                                                     Region IX
                                                                                     Office of Audit Services
                                                                                     90 - yth Street, Suite 3-650
                                                                                     San Francisco, CA 94103
       JUN I I 2009

   Report Number: A-09-09-00074

   Ms. Kathy Silver
   Chief Executive Officer
   University Medical Center of Southern Nevada
   1800 W. Charleston Boulevard
   Las Vegas, Nevada 89102

   Dear Ms. Silver:

   Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
   General (OIG), final report entitled "Review of Oxaliplatin Billing at University Medical Center
   of Southern Nevada for Calendar Year 2004." We will forward a copy of this report to the HHS
   action official noted on the following page for review and any action deemed necessary.

   The HHS action official will make final determination as to actions taken on all matters reported.
   We request that you respond to this official within 30 days from the date of this letter. Your
   response should present any comments or additional information that you believe may have a
   bearing on the final determination.

   Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
   available to the public to the extent that information in the report is not subject to exemptions in
   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

   If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
   (415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
   report number A-09-09-00074 in all correspondence.

                                                  Sincerely,

                                          ;;(U-.          2;f.
                                                 Lori A. Ahlstrand
                                                 Regional Inspector General
                                                  for Audit Services


   Enclosure
Page 2 - Ms. Kathy Silver


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





         REVIEW OF

   OXALIPLATIN BILLING AT

 UNIVERSITY MEDICAL CENTER

    OF SOUTHERN NEVADA

  FOR CALENDAR YEAR 2004





                    Daniel R. Levinson

                     Inspector General


                        June 2009

                      A-09-09-00074

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OlG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OlG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1, 2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

University Medical Center of Southern Nevada (UMC) is a public, nonprofit hospital located in
Las Vegas, Nevada. We reviewed payments to UMC for oxaliplatin provided to Medicare
beneficiaries during calendar year (CY) 2004.

OBJECTIVE

Our objective was to determine whether UMC billed Medicare for oxaliplatin in accordance with
Medicare requirements.

SUMMARY OF FINDING

During CY 2004, UMC did not bill Medicare in accordance with Medicare requirements for the
two oxaliplatin outpatient claims that we reviewed. UMC billed Medicare for an incorrect
number of service units for those claims and received overpayments totaling approximately
$21,552. The overpayments occurred because of confusion related to two oxaliplatin Healthcare
Common Procedure Coding System codes that had different service unit sizes.

RECOMMENDATIONS

We recommend that UMC:

   ..	 work with the Medicare administrative contractor to adjust the two claims and refund
       approximately $21,552 in identified overpayments and

   ..	 ensure that service units of drugs billed correspond to units of drugs administered.

UNIVERSITY MEDICAL CENTER OF SOUTHERN NEVADA COMMENTS

In its comments on our draft report, UMC concurred with our recommendations. UMC's
comments are included in their entirety as the Appendix.
                            TABLE OF CONTENTS




INTRODUCTION                                                  1


    BACKGROUND                                                1

        Outpatient Prospective Payment System                 1

        Oxaliplatin                                           1

        University Medical Center of Southern Nevada          1


     OBJECTIVE, SCOPE, AND METHODOLOGY                        1

          Objective                                           1

          Scope                                               1

          Methodology                                         2


FINDING AND RECOMMENDATIONS                                   2


    MEDICARE REQUIREMENTS                                     2


    INCORRECT NUMBER OF SERVICE UNITS BILLED                  3


    RECOMMENDATIONS                                           3


    UNIVERSITY MEDICAL CENTER OF

     SOUTHERN NEVADA COMMENTS                                 3


APPENDIX


     UNIVERSITY MEDICAL CENTER OF SOUTHERN NEVADA COMMENTS





                                       11
                                       INTRODUCTION


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1,2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

University Medical Center of Southern Nevada

University Medical Center of Southern Nevada (UMC) is a public, nonprofit hospital located in
Las Vegas, Nevada. UMC's Medicare claims for oxaliplatin are processed and paid by
Wisconsin Physicians Service Insurance Corporation, the Medicare administrative contractor.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether UMC billed Medicare for oxaliplatin in accordance with
Medicare requirements.

Scope

We identified and reviewed two claims for which UMC billed HCPCS code C9205 for more
than 100 service units of oxaliplatin and received Medicare payments totaling $27,366 for
oxaliplatin furnished to hospital outpatients during calendar year (CY) 2004.

We limited our review ofUMC's internal controls to those applicable to billing for oxaliplatin
services because our objective did not require an understanding of all internal controls over the



                                                 1

submission of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from CMS's National Claims History file for
CY 2004, but we did not assess the completeness of the file.

We performed our audit from December 2008 through April 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CY 2004 to identify Medicare claims for
      which UMC billed at least 100 service units of oxaliplatin under HCPCS code C9205 and
      received Medicare payments for those units;

   •	 contacted UMC to determine whether the identified oxaliplatin services were billed
      correctly and, if not, why the services were billed incorrectly;

   •	 obtained and reviewed records from UMC that supported the identified claims; and

   •	 repriced incorrectly billed service units using ambulatory payment classification groups
      payment information for the billed HCPCS codes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CY 2004, UMC did not bill Medicare in accordance with Medicare requirements for the
two oxaliplatin outpatient claims that we reviewed. UMC billed Medicare for an incorrect
number of service units for those claims and received overpayments totaling approximately
$21,552. The overpayments occurred because of confusion related to two oxaliplatin HCPCS
codes that had different service unit sizes.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No.1 00-04, chapter 4, section 20.4, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."


                                                2

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205
effective July 1,2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1, 2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2004, UMC billed Medicare for an incorrect number of service units for the two
oxaliplatin outpatient claims that we reviewed. For one claim, UMC billed 172 service units for
215 milligrams of oxaliplatin administered instead of the appropriate 43 service units. For the
other claim, UMC billed 172 service units for 218.5 milligrams of oxaliplatin administered
instead of the appropriate 43 service units. Medicare required billing one service unit for each
5 milligrams of oxaliplatin administered. For the two claims, UMC received overpayments
totaling approximately $21,552.

The overpayments occurred because of confusion related to oxaliplatin HCPCS codes C9205 and
J9263, which had different service unit sizes.

RECOMMENDATIONS

We recommend that UMC:

   •	 work with the Medicare administrative contractor to adjust the two claims and refund
      approximately $21,552 in identified overpayments and

   •	 ensure that service units of drugs billed correspond to units of drugs administered.

UNIVERSITY MEDICAL CENTER OF SOUTHERN NEVADA COMMENTS

In its comments on our draft report, UMC concurred with our recommendations. UMC's
comments are included in their entirety as the Appendix.




                                                3

APPENDIX

                                                                                                                                                                                        APPENDIX

                                                                                                                                                                                         Page 1 of2





1800 W. Charleston Blvd.
Las Vegas, NV 89102                                                                                                                                                   Kathleen Silver
(702) 383-2000                                                                                                                                                Chief Executive Officer




       May 26, 2009



       Lori Ahlstrand

       Regiouallnspector Ckneralfor Audit                             S,~rvices

       Region lX

       OfficcofAUi,Jit Services

       90 - f"Streel. Suite 3-650

       San Francisco, CA 94103


       Report NUluber:                     A-09"09·00074

       Deal' Ms. Ahlstrand:

       T'hisletteris in response 10 the draft report entitled "Review of OXliliplatin Billing at University
       Medical Center of Southern Nevada fOI'Calendar Year 2004". FoHowing is a list oflhe
       recoinrn,~ndiltionsalong With our !'('-sponse and corrective action.


       Recommendation #1:

       Work with Medicare administrative contractor to adjust the two claims and reflmd approximately
       $21,552 in idcntifkd overpayments.

       Response and Adi.onT..ken:

       We concur with this [<'commendation. UMCsubmitled (:errected claims on 2/3/09.


       Recommendation #2:

      Enswe that service twit> of dl'l1gs billed correspond to units of drugs administered.

       Response llndActiQn Taken:

       \'leeoHcur with t.hisrccommendation. The t.wo errors identified duri.ngthe audit were the resolt

       ofamanualcalclllatioll error due to a change InHCPCScodes flnd quailtities. UMC lias

       institutedu1any processestilat willpreveorsimilarel'rors in the futJ-lre.


      In late 2004, UMC implemented the Craneware Chargemaster Toolkit to manage the

      chargemaster.By using this tool, errors such as the one above areless likely to occur, as

      incorrect codes arc highlighted by the application.





                                                                                Bmu-d(ifTi"i/,,!{!(:S

         Ln\VI'e-ilC:i: -Weekly;:C:'wit . Chd.s Gu'!'nchigHani. ViC"e-C{I«;I'      SU::i:ln R:'ngel       l..r.:'i'y Bmwfl     Tom Collins   Ri,.lfY Reid '   St~we   Sisbj,1k

                                                            Vif"gir;ill Vi.i.lc:-:tine., PE, Ch{.'"k C'i.. IIJ::y M(jiiflga

                                                                                                     APPENDIX

                                                                                                      Page 2 of2





We also continue to improve our processes to enable better identification of errors. One of the
major changes recently made is to have all accounts processed through SSI. In order to keep a
complete audit trail of any manual changes, the Management Analyst in Patient Accounts now
attaches a pcrmanent memo to the account in SSI reflecting the manual instructions to the billers.
In addition, the change made is permanently stored in the system history for the accounts and can
be retrieved for audit purposes.

In addition, a custom crosswalk was developed in 2006 to take outpatient transactions from the
Pharmacy's system and convert them to the charge number containing the correct HCPCS codes.
The pharmacy creates a quantity conversion based on the total unit dispensed and the HCPCS
codes units. This conversion is done prior to the charges posting to the account.

Other checks developed include review of all phannacelltical transactions for Oncology patients
by the coding staff to ensure the correct quantity has been applied to the account. The coder
determines if manual charge correetions are required and submits them for posting. These
manual charge sheets and batch reports are maintained for audit purposes.

We appreciate the opportunity to review and respond to the report. Please contact me if you

need any additional information regarding this response.


Sincerely,



~~
Chief Executive Officer
